D
                                                                         MINE SAFETY AND HEALTH

U.S. Department of Labor
I
S
C                                                                        ADMINISTRATION
U
S
S
I
O
N                          Office of Inspector General—Office of Audit
D
R
A
F
T




                                                                         MSHA HAS TAKEN STEPS TO DETECT AND
                                                                         DETER UNDERREPORTING OF ACCIDENTS AND
                                                                         OCCUPATIONAL INJURIES AND ILLNESSES, BUT
                                                                         MORE ACTION IS STILL NEEDED




                                                                                             Date Issued:     March 31, 2014
                                                                                          Report Number:    05-14-001-06-001
U.S. Department of Labor                                   March 2014
Office of Inspector General
                                                           MSHA HAS TAKEN STEPS TO DETECT AND
Office of Audit
                                                           DETER UNDERREPORTING OF ACCIDENTS
                                                           AND OCCUPATIONAL INJURIES AND
                                                           ILLNESSES, BUT MORE ACTION IS STILL
BRIEFLY…                                                   NEEDED

Highlights of Report Number 05-14-001-06-001, issued       WHAT OIG FOUND
to the Assistant Secretary for Mine Safety and Health.
                                                           MSHA can do more to strengthen its process for
WHY READ THE REPORT                                        detecting and deterring underreporting of injuries and
                                                           illnesses in the mining industry.
MSHA collects and analyzes accident and injury data
reported by miners to mine operators. Reports of           MSHA uses three primary methods to detect and deter
accidents and injuries help MSHA focus its resources       underreporting: civil penalties, enhanced scrutiny and
on mines that have elevated accident and injury rates to   enforcement, and publication of the names of violators.
better protect miners.                                     Two recently decided court cases enhanced MSHA’s
                                                           ability to review medical and personnel records in mine
This report highlights actions MSHA should take to         operators’ custody during targeted audits. However,
expand upon and enhance its knowledge of                   MSHA should expand upon and enhance its knowledge
underreporting and to develop and implement policy         of underreporting to better target its efforts to identify
guidance on operator programs relating to the reporting    which mines are the most likely to underreport and
of work-related injuries or illnesses.                     which types of injuries are the most likely to be
                                                           underreported.
WHY OIG CONDUCTED THE AUDIT
                                                           MSHA has not issued guidance on mine operator
Because mines with high injury rates may receive           practices, which may discourage reporting of injuries
additional attention from MSHA, some mine operators        and illnesses by miners. Some mine operators have
may adopt policies that could be perceived as              implemented a variety of policies, programs, and
discouraging injury and illness reporting, potentially     practices related to injury/illness reporting, such as
resulting in adverse consequences for miners who file      progressive discipline measures for repeated reports of
injury reports. Therefore, our audit objective was to      injuries, post-injury drug testing, and incentive
answer the following question:                             programs. Some miners perceive such programs as
                                                           disincentives to reporting injuries and illnesses because
Did MSHA take appropriate actions to detect and deter      they introduce potentially adverse consequences for
underreporting of accidents and occupational injuries      miners who are involved in and who report accidents
and illnesses at coal and metal/nonmetal mines?            and injuries.

READ THE FULL REPORT                                       WHAT OIG RECOMMENDED

To view the report, including the scope, methodologies,    The OIG recommended the Assistant Secretary for
and full agency response, go to:                           Mine Safety and Health direct MSHA to expand upon
http://www.oig.dol.gov/public/reports/oa/2014/05-14­       and enhance MSHA’s knowledge of underreporting by
001-06-001.pdf.                                            deriving better estimates of its overall occurrence. OIG
                                                           also recommended the Assistant Secretary develop and
                                                           implement policy guidance on operator programs
                                                           relating to the reporting of work-related injuries or
                                                           illnesses, addressing retaliation against miners for
                                                           reporting, and encouraging miner reporting of
                                                           work-related injuries or illnesses.

                                                           The Assistant Secretary agreed with our
                                                           recommendations and stated that MSHA will use the
                                                           audit results to continue addressing the underreporting
                                                           of accidents, injuries, and illnesses in the mining
                                                           industry.
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                             MSHA Needs To Take More Action
                                Report No. 05-14-001-06-001
                                                        U.S. Department of Labor – Office of Inspector General




Table of Contents

Inspector General’s Report .......................................................................................... 1


Background ................................................................................................................... 2


Results ........................................................................................................................... 2


Objective — Did MSHA take appropriate actions to detect and deter

underreporting of accidents and occupational injuries and illnesses at coal and 

metal/nonmetal mines? ................................................................................................ 3

          MSHA has taken several steps to detect and deter underreporting, but

          more action is needed. ......................................................................................... 3


          MSHA has not issued guidance on mine operator practices which may

          discourage reporting of injuries and illnesses by miners. ..................................... 6


Recommendations ...................................................................................................... 10


MSHA’S Response ...................................................................................................... 11


Appendices

          Appendix A Objective, Scope, Methodology, and Criteria .................................. 15

          Appendix B Acronyms and Abbreviations........................................................... 17

          Appendix C MSHA Response to Draft Report .................................................... 19

          Appendix D Acknowledgements ......................................................................... 21





                                                                                    MSHA Needs To Take More Action
                                                                                       Report No. 05-14-001-06-001
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                             MSHA Needs To Take More Action
                                Report No. 05-14-001-06-001
                                     U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




March 31 2014

                              Inspector General’s Report


Joseph A. Main
Assistant Secretary
 for Mine Safety and Health
U.S. Department of Labor
1100 Wilson Blvd.
Arlington, VA 22209

The Office of Inspector General’s (OIG) Office of Audit conducted a performance audit
of the Mine Safety and Health Administration’s (MSHA) actions to detect and deter
underreporting of accidents and occupational injuries and illnesses during calendar
years (CY) 2010 to 2012.

MSHA is charged with preventing death, disease, and injury from mining and with
promoting safe and healthful workplaces for the nation’s miners. MSHA collects and
analyzes accident and injury data reported by miners to mine operators. Because mines
with high injury rates may receive additional attention from MSHA, some mine operators
may adopt policies that could be perceived as discouraging injury and illness reporting,
potentially resulting in adverse consequences to miners who file injury reports.

Because of ongoing concerns with this issue, we conducted an audit to answer the
following question:

      Did MSHA take appropriate actions to detect and deter underreporting of
      accidents and occupational injuries and illnesses at coal and
      metal/nonmetal mines?

We conducted audit work at MSHA’s headquarters located in Arlington, VA. We also
interviewed key stakeholders, including representatives from MSHA’s districts, the
Department of Labor’s (DOL) Chief Evaluation Office (CEO), Occupational Safety and
Health Administration (OSHA), industry organizations representing the interests of mine
operators, a mine operator, labor unions, and miners.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require we plan and perform the audit
to obtain sufficient, appropriate evidence to provide a reasonable basis for our results
and conclusions based on our audit objective. We believe the evidence obtained
provides a reasonable basis for our results and conclusions based on our audit
objective. Our scope, methodology, and criteria are detailed in Appendix A.

                                                              MSHA Needs To Take More Action
                                            1                    Report No. 05-14-001-06-001
                                       U.S. Department of Labor – Office of Inspector General



Background

Title 30 of the Code of Federal Regulations (30 CFR), Part 50, authorized by The
Federal Mine Safety and Health Act of 1977, implemented MSHA’s authority to obtain
and utilize information pertaining to accidents, and occupational injuries and illnesses
occurring or originating in mines.

MSHA’s policies and procedures require inspectors to conduct an evaluation of a mine’s
compliance with the Part 50 reporting requirements during every regular safety and
health inspection. Inspectors are required to issue a citation for each separate instance
of a failure to report an accident or occupational injury or illness. Most Part 50 citations
for violations result in a nominal penalty averaging approximately $100.

More than 25 years ago, the Government Accountability Office (GAO) issued two audit
reports dealing with MSHA’s actions to detect and deter underreporting in the mining
industry. Specifically, in March 1987, GAO issued a report titled Inspector Hiring,
Penalty Assessments, and Injury Reporting, in which it found that MSHA assessed
$31,388 in penalties against mine operators for failing to report injuries in 1986. The
increase in the 1986 assessments of $3,600 over the previous 4 years combined was
due to a policy change requiring a citation for each instance of a failure to report an
injury, rather than citing multiple instances of underreporting as one instance. In
addition, GAO issued another report in September 1987 titled Federal Efforts to Improve
Inspections and Injury Reporting, in which it found that the compliance audits MSHA
used to verify the accuracy of reported injury data had limited effectiveness in detecting
underreporting by mine operators. This was the case because only 1 in every 39 mines
was audited each year, audit quality varied, and inspectors seldom reviewed all
available information.

Results

MSHA has taken steps to detect and deter underreporting of accidents and
occupational injuries and illnesses in the mining industry. Specifically, MSHA has
identified underreporting during audits, inspections, and other non-audit activities it
conducts. During 2000-2012, MSHA found over 9,000 underreporting violations,
resulting in over $1 million in proposed civil penalties. MSHA uses 3 primary methods to
detect and deter underreporting: civil penalties, enhanced scrutiny and enforcement,
and publication of the names of violators. Two recently decided court cases enhanced
MSHA’s ability to review medical and personnel records in mine operators’ custody
during targeted audits. Finally, at MSHA’s request, a private contractor conducted a
program evaluation to examine the level of accuracy and completeness of injury/illness
reporting in the mining industry and to identify approaches that MSHA could implement
to better target underreporting.

Notwithstanding these efforts, MSHA can do more to strengthen its process for
detecting and deterring underreporting of injuries and illnesses. MSHA needs to

                                                          MSHA Needs To Take More Action
                                             2               Report No. 05-14-001-06-001
                                                   U.S. Department of Labor – Office of Inspector General


enhance its current knowledge of underreporting by deriving better estimates of the
overall prevalence, magnitude, and distribution of underreporting, which we will refer to
collectively as ‘occurrence of underreporting’ in the rest of this report. MSHA should
also issue policy guidance designed to address safety policies, programs, and practices
that may discourage reporting of injuries and illnesses by miners.

Objective — Did MSHA take appropriate actions to detect and deter
underreporting of accidents and occupational injuries and illnesses at coal and
metal/nonmetal mines?

        MSHA has taken several steps to detect and deter underreporting, but
        more action is needed.

MSHA attempts to detect underreporting of injuries and illnesses in three ways:

    •    Regular safety and health inspections and other non-audit activities, 1
    •    Part 50 audits, 2 and
    •    Pattern of Violations (POV) audits. 3

Using these methods, MSHA detected 9,292 Part 50 underreporting violations that
occurred from CYs 2000 to 2012, resulting in over $1 million in proposed civil penalties.
MSHA also uses 3 primary methods to deter underreporting of accidents and
occupational injuries and illnesses:

    •    Assessment of civil penalties, 4
    •    Audits conducted during a POV screening, 5 and
    •    Publication of violators. 6

MSHA has publicized that the mining industry has had the lowest fatality and injury
rates since it began calculating these rates in 1983. In 2012, 36 miners died on the job

1
  Regular safety and health inspections include an evaluation of a mine’s compliance with the employee and injury
reporting requirements under 30 CFR, Part 50. During these inspections, MSHA has issued citations for violations of
not reporting or underreporting injuries and illnesses.
2
  Part 50 audits are conducted to assess the accuracy of a mine’s accident, injury, illness, and employment records in
compliance with 30 CFR, Part 50. MSHA district managers have the authority to conduct Part 50 audits on a portion
of mines assigned to their district. Part 50 audits may also be the result of district manager discretion or the result of
miner complaints. Districts also conduct Part 50 audits at mines where a fatal accident occurred if they have not
conducted one in the previous 12 months.
3
  MSHA has a POV process in place where mines with chronic and persistent violations of significant health and
safety regulations can be selected for further review and ultimately a Part 50 audit. POV audits are Part 50 audits
conducted by MSHA as part of its POV program to determine if mines are evading MSHA’s POV screening criteria by
inaccurately reporting employee hours or the number of injuries.
4
  While most Part 50 violations for underreporting have resulted in an average nominal penalty of approximately $100,
some of these citations for violations can result in significantly higher penalties if they were the result of what MSHA
terms “high negligence.”
5
  Mines in POV status receive heightened scrutiny and enforcement.
6
  MSHA has issued news releases following the conclusion of its POV audits publicly identifying by name the mines
and operators that engaged in the practice of underreporting.

                                                                             MSHA Needs To Take More Action
                                                            3                   Report No. 05-14-001-06-001
                                      U.S. Department of Labor – Office of Inspector General


and the fatality rate was .0110 deaths per 200,000 hours worked. This represented a
53 percent decrease in the fatality rate for both coal and metal/nonmetal mines since
2010. In addition, the rate of reported non-fatal injuries was 2.56 per 200,000 hours
worked in 2012, which represented a 9 percent decrease for both coal and
metal/nonmetal mines since 2010. Recently, MSHA has undertaken a number of
actions related to its Part 50 audits, including revisions to its auditing process and
training programs, better targeting, and enhanced penalties. On October 13, 2011,
MSHA issued a news release reporting that it found 76 underreported or unreported
injuries in 19 out of 39 mines it audited.

An integral part of detecting underreporting is MSHA’s access to all available records,
including those held by mine operators. In the past, mine operators sometimes refused
MSHA access to employee medical and personnel records that related to accidents,
injuries, and illnesses. Without these records, MSHA faced increased challenges in
detecting underreporting. In April 2013, the United States Court of Appeals for the
Seventh Circuit upheld a May 24, 2012 decision of the Federal Mine Safety and Health
Review Commission (FMSHRC) that had affirmed citations and orders issued by MSHA
to mine operators on November 9, 2010. These mine operators had refused to produce
miners’ payroll and personnel records in connection with a Part 50 audit.

United States Court of Appeals for the Seventh Circuit Rules MSHA May Require
Production of Miner Medical and Personnel Records in Possession of Mine Operators

On April 26, 2013, the Seventh Circuit issued its decision in Big Ridge, Inc. v. Federal
Mine Safety and Health Review Commission, 715 F. 3d 631 (7th Cir. 2013). The case
concerned the refusal by two mines operated by Peabody Energy Company to turn over
employee medical and personnel records that related to accidents, injuries, and
illnesses occurring at the mines. Peabody challenged a FMSHRC decision requiring
production of the disputed records on numerous grounds. Peabody argued, among
other things, that: (a) MSHA was not authorized to demand production of materials and
information relating to accidents, illnesses, and injuries that were not specifically
required to be maintained by a mine operator pursuant to the Mine Act; (b) requiring
such production violated the Fourth Amendment prohibition against unreasonable
searches and seizures; and (c) MSHA’s procedures for proposing and assessing
penalties for non-compliance violated the Fifth Amendment right to due process.

In rejecting Peabody’s arguments, the Court concluded, among other things: (a) under
Section 103(h) of the Mine Act and 30 CFR, Part 50.41, MSHA may require mine
operators to produce employee medical and personnel records to verify compliance with
their reporting requirements, despite the fact that the Mine Act does not specifically
require mine operators to maintain those records; (b) the requirements of
30 CFR, Part 50.41 do not exceed MSHA’s authority under the Mine Act; (c) the
requirement to produce the medical and personnel records does not violate mine
operators’ Fourth Amendment right against unreasonable searches and seizures;
(d) the requirement that the mine operators produce the medical and personnel records
does not violate the privacy rights of the employees; (e) the procedures by which MSHA

                                                         MSHA Needs To Take More Action
                                            4               Report No. 05-14-001-06-001
                                       U.S. Department of Labor – Office of Inspector General


proposes and assesses penalties for failure to comply with an order to produce records,
including daily penalties prior to judicial review of the underlying violation, does not
violate the Fifth Amendment right to due process; and (f) MSHA’s records request did
not impermissibly conflict with other federal or state laws.

It should be noted that the Big Ridge case constitutes binding legal precedent only in
the Seventh Circuit. If courts in jurisdictions other than the Seventh Circuit were to reach
a different conclusion with respect to the scope of MSHA’s authority, then different rules
would apply in different parts of the country unless and until any conflicts between the
jurisdictions are resolved by the United States Supreme Court. However, because
FMSHRC ruled in MSHA’s favor, and its rulings apply to all jurisdictions, MSHA expects
the Administrative Law Judges who hear similar cases to follow the Commission’s
precedent in all cases before them.

Eastern Research Group (ERG) Study Results May Be Used to Better Target MSHA
Audits

Notwithstanding its ongoing detection and deterrence activities, MSHA did not have
knowledge of the occurrence of underreporting at the level of granularity needed to
detect and deter underreporting across the mining industry. This was partly attributable
to the lack of studies of the subject, complicated by the fact that data regarding
underreporting were difficult to capture. Consequently, MSHA had only a rough estimate
of underreporting, but no information on which mines were the most likely to underreport
and which types of injuries were the most likely to be underreported. This type of data
would allow MSHA to better target its enforcement efforts. Consequently, in its
continuing efforts to enhance the methodology it uses to detect underreporting of
accidents and injuries, MSHA commissioned a study that attempted to quantify the
occurrence of underreporting and isolate indicators that MSHA could use to better target
its detection efforts.

At MSHA’s request, the Office of the Assistant Secretary for Administration and
Management entered into a contract with ERG, a private contractor, to conduct a
program evaluation. The purpose of this evaluation was to examine the level of
accuracy and completeness of injury/illness reporting in the mining industry and to
identify feasible improvement approaches that MSHA could implement.

ERG proposed that MSHA expand its knowledge of underreporting by recommending it
perform random audits to capture reliable injury and illness information from mines, and
further perform detailed analyses of audit results to better target future audits. MSHA
acknowledged that the difficulties it encountered in completing the ERG evaluation have
persuaded the agency that the only way to obtain a relatively reliable estimate of
underreporting would be to conduct audits across all sectors of the mining industry.
However, MSHA is concerned that this approach is too resource-intensive to be
feasible. Specifically, MSHA officials state that while the question of the extent and
magnitude of underreporting is an important one, the cost of obtaining the answer
through auditing of mines randomly selected through sampling cannot be justified in the

                                                          MSHA Needs To Take More Action
                                             5               Report No. 05-14-001-06-001
                                      U.S. Department of Labor – Office of Inspector General


current budgetary climate. The National Institute for Occupational Safety and Health told
the OIG that it has offered to provide part of the funding needed to support the
development of an intensive audit-focused effort for determining the occurrence of
underreporting in one sector of the mining industry (underground metal mines).

MSHA should consider expanding upon and enhancing its knowledge of underreporting
to better target its efforts by deriving better estimates of its overall occurrence. This
could help reveal which mines are the most likely to underreport and which types of
injuries are the most likely to be underreported. It could also help explore whether
MSHA can glean any indicators or red flags of underreporting from Part 50 disclosures
that could guide and focus future enforcement.

      MSHA has not issued guidance on mine operator practices which may
      discourage reporting of injuries and illnesses by miners.

MSHA has taken a number of actions to protect miners from discrimination for
exercising their rights and to assist miners and their representatives in understanding
their rights under the Mine Act, such as investigating discrimination complaints by
miners who claim retaliation for reporting accidents and hazards and establishing new
review policies for discrimination complaints to ensure consistency. In addition, MSHA
has conducted education, training programs, and outreach efforts during inspections,
training program evaluations, and audits to educate miners about their rights under the
Mine Act. This included providing miners with materials highlighting their statutory rights
and noting MSHA’s toll free hotline for miners to report violations, hazardous conditions,
and imminent dangers.

MSHA has just begun to address operator programs that some miners and union
representatives view as discouraging injury/illness reporting by miners. MSHA is
currently engaged in developing a strategy in conjunction with the Office of the Solicitor
of Labor to address operator programs and practices that MSHA believes may
discourage reporting. MSHA agrees that a policy statement and outreach on this issue
may be appropriate, but wants to ensure any such approach receives appropriate legal
review. The OIG believes MSHA should make it a priority to develop policy in this area.

Some mine operators have implemented a variety of policies, programs, and practices
related to injury/illness reporting, such as progressive discipline measures for repeated
reports of injuries, post-injury drug testing, and incentive programs. Operators instituted
these programs as incentives for miners to pay more attention to safety. However, some
miners perceive such programs as disincentives to reporting injuries and illnesses
because they introduce potentially adverse consequences for miners who are involved
in and who report accidents and injuries.

The OIG conducted interviews with miners from several mines to gain insight into
factors that may influence them not to report accidents or injuries, and approaches that
mine operators take with respect to injury reporting. During these interviews, miners
shared with us their personal stories, including examples of how they had been injured,

                                                         MSHA Needs To Take More Action
                                             6              Report No. 05-14-001-06-001
                                       U.S. Department of Labor – Office of Inspector General


whether they felt comfortable reporting their injury, their reasons for not reporting, and
the results of reporting work-related injuries and illnesses. They also provided their
perspective on the design and operation of certain operator policies, programs, and
practices related to injuries and the impact such policies, programs, and practices have
on miners’ willingness to report injuries and on miner morale. The miners, union
officials, and MSHA staff members whom the OIG interviewed generally believed that
some of these programs discourage miners from reporting incidents, accidents, injuries,
illnesses, and hazards.

Mine operators benefit from having low rates of reported injuries/illnesses. High rates of
injury or illness can increase workers’ compensation expenses and may single out
mines for increased enforcement by MSHA. The challenge facing MSHA is to ensure
that lowered rates of reported injuries/illnesses result from improved safety practices
rather than underreporting.

The OIG enlisted the assistance of the United Steelworkers to arrange anonymous
one-on-one interviews with 50 union and nonunion miners in 5 local union offices
located in Minnesota. We asked each of these miners to share their stories and
experiences relating to any barriers they may have faced in terms of reporting
work-related injuries or illnesses. This testimonial evidence indicates that a variety of
mine operator policies and strategies may potentially discourage miners and mine
operator employees from reporting injuries and illnesses. Information gathered during
these interviews with miners and their representatives presented examples of how,
absent guidance from MSHA, it can be unclear whether a mine operator’s policies
actually foster safety or merely encourage underreporting. For example:

   •	 Injury discipline policies and practices with names like the “Accident
      Repeaters Program” may discipline miners who report work-related
      injuries or illnesses, not for conduct, but for the mere fact they became
      injured, thereby potentially discouraging them from reporting injuries and
      illnesses. Miners may perceive the discipline as punishment that serves to
      discourage injury/illness reporting. Mine operators, on the other hand, may
      believe such programs are an incentive for miners to be more careful on
      the job, thereby reducing the actual injury/illness rate.

   •	 Mine operators’ programs may also discipline miners for the “untimely”
      reporting of injuries/illnesses. Some miners indicated during our interviews
      that they were reluctant to report an incident unless and until an injury had
      manifested itself. It could be argued, however, that this mentality is
      counter-productive in that improving mine safety requires reducing the
      number of incidents that occur regardless of whether an injury occurs. If
      incidents that do not result in injuries are not reported, mines may appear
      safer than they actually are.

   •	 Some safety incentive programs reward groups of miners for low or no 

      reported injury/illness within the group. Programs such as this may be 


                                                          MSHA Needs To Take More Action
                                             7               Report No. 05-14-001-06-001
                                      U.S. Department of Labor – Office of Inspector General


      seen as introducing an element of peer pressure from fellow miners not to
      report injuries because the incentives are awarded as a group. On the
      other hand, the result could be peer pressure to follow safe practices in
      the mines.

   •	 At least one miner reported that post-injury drug testing had delayed
      treatment for his injury. MSHA’s policies should ensure that legitimate
      post-injury drug testing may not adversely impact the availability of prompt
      medical care for injured miners.

The OIG spoke with organizations representing the mining industry, including the
National Mining Association (NMA), which represented 278 coal and metal/nonmetal
operators nationwide. The NMA representative told the OIG he believed progressive
discipline programs are necessary where efforts at educating miners about safety have
failed. He also indicated he did not know the degree to which production incentive
programs have encouraged underreporting due to peer pressure among miners. The
NMA representative noted that the mining industry is having discussions regarding the
role of behavior in safety performance. In this regard, he said a number of operators
have established behavior-based safety observation programs where safety managers
working in collaboration with miners anonymously observe other miners while they are
working (peer to peer observation) to identify and report potential hazards to
management. According to him, these programs are intended to be educational, not
punitive.

In addition, we attempted to reach mine operators to gain their insight and perspective
on this topic. However, despite our efforts, we were able to interview only one mine
operator. This national operator confirmed that the company had in place progressive
discipline, safety incentive, and post-accident drug testing programs, and also shared
with the OIG that he believed it was too early to judge the effectiveness of these
programs in reducing injury/illness rates.

OSHA Memoranda

While MSHA’s authority is not the same as OSHA’s, it is useful to compare OSHA’s
actions with respect to programs that may discourage injury or illness reporting with
MSHA’s.

OSHA has recently begun to address programs that may discourage reporting. In
response to the growing documentation of employer suppression of workers’ injury
reports, OSHA issued a memorandum in March 2012 titled, ‘‘Employer Safety Incentive
and Disincentive Policies and Practices,’’ that stated:

      “Reporting a work-related injury or illness is a core employee right, and
      retaliating against a worker for reporting an injury or illness is illegal
      discrimination.”



                                                         MSHA Needs To Take More Action
                                            8               Report No. 05-14-001-06-001
                                      U.S. Department of Labor – Office of Inspector General


This memorandum outlined OSHA’s position regarding employer practices that
discourage workers from reporting job injuries and illnesses. It explained workers’ legal
protections for reporting under Section 11(c) of the Occupational Safety and Health Act,
other whistleblower programs (such as the Federal Railway Safety Act) and under
OSHA’s Recordkeeping Rule (Title 29 CFR, Part 1904). The OSHA memorandum
provided examples of employer policies and practices that could violate OSHA
Section11(c), other whistleblower protections, or OSHA’s Recordkeeping Rule. Some
examples included:

   •	 Policies of taking disciplinary action against employees who are injured on

      the job, regardless of the circumstances surrounding the injury;


   •	 Employees who report an injury or illness are disciplined, and the stated 

      reason is that the employees have violated an employer rule about the 

      time or manner for reporting injuries and illnesses;


   •	 Employees report an injury, and the employer imposes discipline on the 

      grounds that the employee violated a safety rule, but this is only a pretext

      for retaliation. This can be the case where the employer does not impose 

      discipline for violations of the rule where there is no injury, and particular

      concern arises when the employer disciplines the employee on the

      grounds that the injury resulted from the violation of a vague safety rule 

      such as a requirement that employees “maintain situational awareness” or

      “work carefully.” These vague standards may be manipulated and used as

      a pretext for retaliation; and


   •	 Employers establish programs that unintentionally or intentionally provide 

      employees an incentive to not report injuries, such as entering all

      employees who have not reported an injury or illness in the previous year

      in a drawing to win a prize. Similarly, a team of employees might be

      awarded a bonus if no one from the team has reported an injury or illness

      over some period of time.


OSHA also suggested in this memorandum that the potential for unlawful discrimination
under all of these policies may increase when management or supervisory bonuses are
linked to lower reported injury rates.
In addition, on June 29, 2011, OSHA Assistant Secretary David Michaels issued a
memorandum to regional administrators, directorates, and freestanding offices
administering OSHA's Voluntary Protection Program (VPP), which is an OSHA program
providing official recognition for the outstanding efforts of employers and employees
who have achieved exemplary occupational safety and health. That memo stated OSHA
may not approve VPP application from employers that maintain "incentive programs
containing provisions that could discourage injury and illness reporting." The memo
further explained that acceptable incentive programs encourage or reward workers for
reporting injuries, illnesses, near-misses, or hazards; or otherwise encourage worker

                                                         MSHA Needs To Take More Action
                                             9              Report No. 05-14-001-06-001
                                      U.S. Department of Labor – Office of Inspector General


involvement in the safety and health system. This memorandum outlined both
incentives that promote injury and illness reporting and worker involvement, and
disincentives that discourage injury and illness reporting and worker involvement. The
memorandum provided that:

   •	 A positive incentive program encourages or rewards workers for reporting

      injuries, illnesses, near misses, or hazards; and/or recognizes, rewards,

      and thereby encourages worker involvement in the safety and health 

      management system. Examples of such positive incentives include 

      providing tee shirts to workers serving on safety and health committees;

      offering modest rewards for suggesting ways to strengthen safety and 

      health; or throwing a recognition party at the successful completion of

      company-wide safety and health training; and


   •	 An incentive program that focuses on injury and illness numbers often has
      the effect of discouraging workers from reporting an injury or illness. When
      an incentive program discourages worker reporting or, in particularly
      extreme cases, disciplines workers for reporting injuries or hazards,
      problems remain concealed, investigations do not take place, nothing is
      learned or corrected, and workers remain exposed to harm. Disincentives
      to reporting may range from awarding paid time off to a unit that has the
      greatest reduction in incidence rates to rewarding workers with a pizza
      party for achieving an injury/rate reduction goal or maintaining an injury-
      and illness-free worksite for a period of time.

The OIG believes MSHA needs to take more action to encourage employers to create a
culture of reporting injuries/illnesses and to address retaliatory and injurious employer
practices. Specifically, MSHA can introduce policy guidance that directly addresses
operator policies, programs, and practices that discourage the reporting of injuries and
illnesses and in so doing adversely affect the safety and health of miners.

Recommendations

We recommend that the Assistant Secretary for MSHA:

   1. Expand upon and enhance MSHA’s knowledge of underreporting by 

      deriving better estimates of its overall occurrence.


   2. Develop and implement policy guidance on operator programs relating to 

      the reporting of work-related injuries or illnesses, addressing retaliation 

      against miners for reporting, and encouraging miner reporting of

      work-related injuries or illnesses.





                                                         MSHA Needs To Take More Action
                                           10               Report No. 05-14-001-06-001
                                      U.S. Department of Labor – Office of Inspector General


MSHA’S Response

The Assistant Secretary for Mine Safety and Health accepted the recommendations in
the audit report and stated that MSHA will use the audit results to continue to address
the problem of underreporting of accidents, and occupational injuries and illnesses in
the mining industry. MSHA will consider sponsoring or participating in additional studies
of underreporting based on resources, feasibility, and efficacy. Once MSHA has
completed policy development and legal review, the agency will transmit appropriate
guidance to the mining community on operator programs relating to the reporting of
work-related injuries or illnesses. See Appendix C for MSHA’s entire response.

We appreciate the cooperation and courtesies that the Mine Safety and Health
Administration personnel extended to the Office of Inspector General during this audit.
OIG personnel who made major contributions to this report are listed in Appendix D.




Elliot P. Lewis
Assistant Inspector General
  for Audit




                                                         MSHA Needs To Take More Action
                                           11               Report No. 05-14-001-06-001
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                             MSHA Needs To Take More Action
               12               Report No. 05-14-001-06-001
              U.S. Department of Labor – Office of Inspector General




Appendices





                                 MSHA Needs To Take More Action
                   13               Report No. 05-14-001-06-001
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                             MSHA Needs To Take More Action
               14               Report No. 05-14-001-06-001
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Objective, Scope, Methodology, and Criteria

Objective

We conducted an audit to answer the following question:

       Did MSHA take appropriate actions to detect and deter underreporting of
       accidents and occupational injuries and illnesses at coal and
       metal/nonmetal mines?

Scope

We reviewed MSHA’s actions, including policies and activities to detect and deter
underreporting of accidents and occupational injuries and illnesses during
CYs 2010 to 2012. We conducted audit work at MSHA’s headquarters located in
Arlington, VA.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
results and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our results and conclusions based on our audit
objective.

Methodology

We interviewed key stakeholders, including seven MSHA district managers, two CEO
officials, three OSHA officials, four industry organization representatives, one safety
manager representing a mine operator, three labor union representatives, five members
of an independent technical working group comprising non-MSHA mine safety and
health experts for the ERG evaluation, and 50 metal non/metal miners. We further
reviewed the solicitation and contract administration documentation associated with the
ERG report for the evaluation of Part 50 reporting of mine injuries and illnesses.

Data Reliability

To determine the reliability of MSHA’s Part 50 data, we relied primarily on the results of
data reliability testing performed during the OIG’s audit of MSHA’s POV authority (In 32
Years, MSHA Has Never Successfully Exercised Its Pattern of Violations Authority,
Report No. 05-10-005-06-001, issued September 29, 2010). We concluded the data
were sufficiently reliable to be used in meeting our objective.




                                                         MSHA Needs To Take More Action
                                            15              Report No. 05-14-001-06-001
                                     U.S. Department of Labor – Office of Inspector General


Internal Control

In planning and performing our audit, we considered MSHA’s internal controls that were
relevant to our audit objective by obtaining an understanding of those controls, and
assessing control risk for the purpose of achieving our objective. The objective of our
audit was not to provide assurance on the internal controls. Therefore, we did not
express an opinion on the internal controls as whole. Our consideration of MSHA’s
internal controls relevant to our audit objective would not necessarily disclose all
matters that might be reportable conditions. Because of the inherent limitations on
internal controls, noncompliance may occur and not be detected.

Criteria

   •	   Federal Mine Safety and Health Act of 1977
   •	   30 CFR, Part 50
   •	   30 CFR, Part 100
   •	   Citation and Order Writing Handbook for Coal mines and Metal and Nonmetal
        Mines (March 2008)
   •	   Metal and Nonmetal General Inspection Procedures Handbook (October 2009)
   •	   Program Policy Manual, Volume III, Part 50 (February 2003)
   •	   Program Policy Letter, No. P11-V-05 (effective March 16, 2011)
   •	   Program Information Bulletin, No. P11-35 (issued on May 9, 2011)




                                                        MSHA Needs To Take More Action
                                          16               Report No. 05-14-001-06-001
                                U.S. Department of Labor – Office of Inspector General


                                                                        Appendix B
Acronyms and Abbreviations

CEO                     Chief Evaluation Office

CFR                     Code of Federal Regulations

CY                      Calendar Year

DOL                     Department of Labor

ERG                     Eastern Research Group

FMSHRC                  Federal Mine Safety and Health Review Commission

GAO                     Government Accountability Office

MSHA                    Mine Safety and Health Administration

NMA                     National Mining Association

OIG                     Office of Inspector General

OSHA                    Occupational Safety and Health Administration

POV                     Pattern of Violations

Seventh Circuit         United State Court of Appeals Seventh Circuit

VPP                     Voluntary Protection Program




                                                   MSHA Needs To Take More Action
                                      17              Report No. 05-14-001-06-001
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                             MSHA Needs To Take More Action
               18               Report No. 05-14-001-06-001
                                                  U.S. Department of Labor – Office of Inspector General


                                                                                                          Appendix C
MSHA Response to Draft Report



                                              \.M~ s*•~~V sn(J H&91UI Adm··ir.tto.·.lon
     IJ.S. Oepal11"enl of Labor
                                              1100 W11scr. Boule>.W'd
                                              Arhn{lton. Virninioa ?.??n!l..l~:\!1




          MEMORANDUM rOR ELLIOT P. LEWIS
                         ~n't ln&pector General of Audit


          FROfvl:                   JOS;~
                                    Assistant Secretary of labot for
                                    Mine Safety and He31th

          SUBJECT:                 Response to DIG Ora~ Audit Repcrt: ··MSHA H:Js Taken Step•
                                   to O&C6CI and Deter Undsrrcpo11ing of Accidenls snd
                                   Occupational Injuries and 1/Jncsses, But More Acrion /s Sri/1
                                   .\iccrtcrr (05·14·00t.06.00f)


          Thank you for the opportunity to review yout Draft Audit Report referenced above. I he
          Mine Safety and Health Adninistraticn (MSHA) will use the audit results to continue to
          address the probJetn of underreporting of accidents, injuriP.~. and illnesses in th~ •••ining
          industry.

          WP. aprrP.r.iatP. thP. OIG·s ~er.og"''ition cftl)e steps MSHA ho~ already taken to determine
          the extent ot under• e::>orting of acc1dents, injt.ries. afld i.lnesses in th& mining i1:l'ustry,
          as well as our efforts to detect and deteJ underreporting. As :ho OIG points out, MSHA
          i<.fentifi~s poteuli~l unc.Jeneponing through regular safety and health inspec!ions. Part 50
          audits. and Pattern ot Violations (I>OV) audits. MSHA revised its a~diting methods in
          2010 to improve the effectiveness of POV audits, and incorpor3ted these methods intc
          its aucli~i'ig procedures. M$'-IA also conducts education, training programs. and
          outre.act- efforts to educate miners about their rights under the tv1inP. Act.

          As we explained tn our exit conference lot this audit M$HA is developing a strategic
          approach to add·essing underreporting. In add t'on to the steps it has already taken.
          MSHA is preparing educaUcoal rnaterials tor both m1ners a.'ld operators on compliance
          with Part 50 reporting require•neots. including best practices in ensuring aocuratc
          reporting <'nd the righffi of min~rs to report injuries. MSHA has also been wori(ing with
          the Occupational !;atety and Health Adrrinistrati01. (OSHA) to 110arn about OSHA·s
          policies on injury a11d ilhess reportinQ and der1tify policies suitable for addressing the




                                                                                    MSHA Needs To Take More Action
                                                            19                         Report No. 05-14-001-06-001
                                        U.S. Department of Labor – Office of Inspector General




und~rrepo.1ing of minin9-rela~d accide.,ts. inj•tri~~ and illnesses Finally. MSHA is
collaborating \lfit~. the Office of the Solicitor to ensure ary policies (l develops are
grcunded in the Af}ency'$ enforcement authority under the Mi; .e Act.

Below are specific responses to your recommendations.


OIG Recommendation No 1: Expafld upon ond e.oloBfi<'e MSHA's koowlsdgo of
umleat:;JJ(){(IIJg !Jy ded•tjng ~ttor estimates oi .=ts owuaJj occurrenoc.

MSHA agrees with ('li$ rc~mmendation. It is i•• the best interesl of health and safety in
mining to have ac~urate information on the in:.;idence of acciderts. injuries, and
occupational illnesses. ~Ve also agree lNith fhP. OIG that underr~IJO•Iing is (fiHicolt to
study in large part due to the lack cf verifiable data en the subject. MSHA will considet
spon5ori1~ or participating in additional studies of underreporting based on resoutces,
feasibility and eftic.acy.


OIG Recommendation No. 2: Develop afld iM,OI&meut poiicy gujdance on op~ratr:r
ptoy1ams relating to lhr: reporting of wofk-~laC6<1 .injuries or i/Jfle~~e9. addressing
retali~tion ag~"'inst mjne~S fof teJlOr1ing. and ~nr.n!)(ag.:ng mim:Jt reportjr;g of work·relaled
injuries or illaosscs.

MSJ lA agrees with this recommendation. As you s.ti::ll~d n )'our report, ''MSHA is
curre!ltly engaged in developing a strategy in conjunctiOfl witl·, the Office of the Solir.ito~
of Labor to address operator programs and practices thai MSH.'\ believe,; may
discourage reportirg." MSHA also i5 ccnsulli!1Q with the Occupa:.ional Safety and
Health Adminisfralion on OSHA's policies in 1'\is area. Once thorough policy
development and legal review have been completed. MSHA will transmit appropriate
auic1~nC"~ to the mininy collllllunity. MSHA will al5o devefop educational tools to assist
mine c~-terators wit~. Part 50 repvrting recui·ements.

I appreci•te the opportunity to respond to this Draft Report.




                                                                   MSHA Needs To Take More Action
                                                20                    Report No. 05-14-001-06-001
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix D
Acknowledgements

Key contributors to this report were Nicholas Christopher (Audit Director), S. Marisela
Sookraj (Audit Manager), Donald Evans, Eric Rann, Richard Bryan, Elizabeth Garcia,
David Hutner, and Mary Lou Casazza.




                                                         MSHA Needs To Take More Action
                                           21               Report No. 05-14-001-06-001
TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:   http://www.oig.dol.gov/hotlineform.htm
Email:    hotline@oig.dol.gov

Telephone:      1-800-347-3756
                202-693-6999

Fax:            202-693-7020

Address: Office of Inspector General
         U.S. Department of Labor
         200 Constitution Avenue, N.W.
         Room S-5506
         Washington, D.C. 20210
